PROOF OF SERVICE.

At the time of the service, I am over 18 yo and not a Party in this action.
My address is:
225 Hyde St., Apt. 603, San Francisco, CA, 94102

On February 05, 2021,1 mailed the following documents:
1) Petition for Rehearing No. 20-607
2) 21 (twenty one) Exhibits
3) Certificate
to the following address:
The Executive Office, Alameda Health System,
1411 E. 31st St., Oakland, CA, 94602

I declare under the penalty of perjury and under the Federal laws that all
foregoing is true and correct. Executed at San Francisco, CA bn February 05, 2021.

Mark Sklar

Name

Signature

Date: February 05, 2021.

RECEIVED
F£B 1 1 2021

